                                                  September 2, 2003




MEMORANDUM TO:                    William D. Travers
                                  Executive Director for Operations




FROM:                             Stephen D. Dingbaum/RA/
                                  Assistant Inspector General for Audits


SUBJECT:                          MEMORANDUM REPORT: FOLLOW-UP REVIEW OF
                                  NRC’S INTERNET USAGE (OIG-03-A-21)


In October 2001, the Office of the Inspector General (OIG) reported that based on an
assessment over an 8-day period in June 2001, 52 percent of agency employee Internet
activity was for personal use.1 Approximately 5 percent of the personal use was in
direct violation of NRC policy and was referred to the OIG investigative staff for further
review. OIG reported that because of the amount of personal use and the occurrences
of prohibited use, the Nuclear Regulatory Commission (NRC) needed to enforce its
policy for personal Internet usage. The report made five recommendations to the
Executive Director for Operations to develop, issue, and communicate a revised Internet
usage policy and to restrict prohibited Internet activity. The agency has implemented
corrective actions in response to the recommendations in the October 2001 audit report.
The recommendations and the corrective actions appear on pages three through six of
this report.

OIG has completed a follow-up audit on Internet use to determine the status of the
recommendations made in the October 2001 audit report, the amount of employee
personal Internet use, and the frequency of prohibited Internet activity. The audit was
intended to provide a general characterization of NRC’s Internet use. A comparison of
the January 2003 Internet data to the June 2001 data showed that personal use of the
Internet remained virtually the same, while prohibited activity (e.g., visiting sexually
explicit Web sites) decreased. Specifically, 51 percent of NRC employee Internet
activity was for personal use in 2003, compared to 52 percent in 2001. However,
prohibited activity decreased to less than 1 percent in 2003 from 5 percent in 2001.
Because the total amount of personal use remains over 50 percent, this report contains
two recommendations to manage personal use of the Internet at NRC.


1
    Report OIG-02-A-01 entitled Use of the Internet at NRC, dated October 15, 2001.
NRC Policy

        Management Directive (MD) 2.7, Personal Use of Information Technology, defines
        acceptable conditions for NRC employees’ personal use of information technology (IT).
        MD 2.7 was issued on the basis of recommendations from the Federal Chief Information
        Officer Council’s Government-wide policy guidance, “Limited Personal Use of
        Government Equipment Including Information Technology,” which provides a backdrop
        of conditions for an agency to consider when developing a personal use policy for
        Government office resources. The policy and guidance in MD 2.7 states that personal
        use of the Internet is acceptable2 when such use:

            •   Involves minimal or no additional expense to the Government.
            •   Is performed during employee non-work time.
            •   Does not interfere with NRC’s mission or operation.
            •   Does not violate Federal Government Standards of Ethical Conduct.
            •   Is not otherwise prohibited by law.


PURPOSE


        The objectives of this follow-up audit were to:

        1. Review the implementation of corrective actions taken since October 2001 to
           strengthen management controls over employee personal use of the Internet.

        2. Characterize NRC employees’ use of the Internet to determine whether the
           use was in compliance with NRC policy.




2
  MD 2.7 states that the policy and guidance applies to all NRC employees, including Special
Government Employees. NRC contractors are prohibited from personal use of agency
information technology.


                                                2
RESULTS

      Agency actions taken as a result of the recommendations from the previous OIG
      report have greatly reduced the amount of prohibited access to Web sites.
      Based on a 1-week period in January 2003, OIG determined that 51 percent of
      employee Internet use was for personal use. Prohibited use however declined
      from 5 percent to less than 1 percent as a result of the agency’s blocking of
      inappropriate Web sites. Specifics on these matters are described in the
      following sections.

Implementation of Corrective Actions

      OIG’s October 2001 audit report on Internet use made five recommendations to
      the Executive Director for Operations to help strengthen management controls
      over the amount of personal use and to restrict prohibited Internet activity.

          •   Initiate monitoring of Internet activity.

          •   Review and clarify MD 2.7 to address Internet activity not currently
              covered, such as Visual Basic Script file type downloads.

          •   Revise NRC Management Directives, as appropriate, to ensure NRC’s
              Internet use policy covers persons other than NRC employees who use
              NRC computers to access the Internet.

          •   Restrict prohibited Internet activity using software or other means.

          •   Issue a Yellow Announcement, or other appropriate communication,
              advising employees and other affected users of the agency’s revised
              policy and emphasizing that management will not tolerate prohibited
              activity.

      The agency took the following actions in response to these recommendations.


              Initiate monitoring of Internet activity


      The Office of the Chief Information Officer (OCIO) monitors Internet activity
      monthly using a software product that basically shows a trend analysis of Internet
      use for the agency. This software is not used to monitor individual use, but
      rather provides information such as general agency statistics, the most popular
      sites visited, activity levels for the different time periods, and other information.




                                               3
OCIO recognizes its duty to help ensure the integrity of the agency by not only
monitoring but also by providing tools to assist NRC managers in evaluating staff
use of the Internet.

       Review and clarify Management Directive 2.7 to address Internet
       activity not currently covered, such as Visual Basic Script file type
       downloads

OCIO examined MD 2.7 and found it adequate as written with respect to
personal use by NRC employees. MD 2.7 states that personal use of agency IT
is a privilege, not a right, and employees should not have the expectation of
privacy while using agency IT systems. By using agency IT systems, employees
acknowledge their consent to disclosing the contents of any files or information
maintained in the systems.

       Revise NRC Management Directives, as appropriate, to ensure
       NRC’s Internet use policy covers persons other than NRC
       employees who use NRC computers to access the Internet

In response to the OIG finding that contractors used the Internet inappropriately,
NRC issued a new procurement instruction. This instruction reflects MD 2.7’s
prohibition of personal use of agency information technology by contractors. The
Division of Contracts and Property Management (DCPM) Instruction 02-01,
issued March 4, 2002, specifically prohibits personal use of IT equipment by
contractors. DCPM Instruction 02-01 states that the contractor must be held
responsible for monitoring its employees, consultants, and subcontractors to
ensure that NRC-furnished IT equipment and/or IT access is not used for
personal activities, misused, or used without proper authorization. To implement
this policy, NRC’s Division of Contracts requires all solicitations, contracts, or
delivery orders that allow contractor staff access to NRC IT equipment and
services to include the clause, “Appropriate Use of Government Furnished
Information Technology (IT) Equipment and/or IT Services/Access.”

       Restrict prohibited Internet activity using software or other means

In November 2002, OCIO began using software that places a filter to block
inappropriate Web sites. When such a site is accessed, the network displays a
message explaining that the site is blocked and why it is inappropriate. A sample
picture of the message is displayed below.




                                     4
   Issue a Yellow Announcement, or other appropriate communication,
   advising employees and other affected users of the agency’s revised
   policy and emphasizing that management will not tolerate prohibited
   activity

A Yellow Announcement was issued in December 2001 and in February 2003 to
remind employees of NRC’s Internet limited personal use policy. It stated that
NRC employees must exercise common sense, good judgment, and propriety in
the use of this valuable resource. The announcement reminded the staff that
NRC allows employees to access the Internet for limited personal use when such
use involves minimal or no additional expense to the Government, is performed
on the employee’s non-work time, does not violate the Standards of Ethical
Conduct for Employees, and is not otherwise prohibited by law.




                                   5
Characterization of Current Internet Use

        During a 1-week period in January 2003, 51 percent of NRC employee Internet
        activity appeared to be for personal use. Although each individual accessing the
        Internet may not be a problem, the composite total of personal Internet use is
        over 50 percent. NRC currently does not employ a management tool that
        enables individual use to be routinely monitored. Thus, the agency could
        experience a public relations issue in the future if the public perceives this rate as
        excessive.

        Internet use is largely personal

        As part of its assessment of employee3 Internet use for a 1-week period in
        January 2003, OIG analyzed accessed Web sites that represented about 75
        percent of all sites visited for that week.

        To analyze Internet use, OIG used data that provided the volume of information
        transferred4 to the employees’ computers. Internet activity was categorized as
        business or personal. In addition, some Web sites could have been accessed for
        either business or personal reasons and were therefore categorized as mixed
        use in this report. Examples of mixed use are news sites and search engines
        such as www.google.com. The analysis did not break out non-working hours
        from working hours. In addition, the analysis did not determine actual time spent
        using the Internet.




3
  Employee use included use of the Internet by NRC contractors. OIG included contractor use
because contractors are accessing the Internet for personal use.
4
  This information transfer is referred to in this report as activity and indicates the actual number
of bytes of information that were transferred to an employee’s computer from the logs. The logs
do not provide duration or the amount of time the site is in use.


                                                   6
                    Comparison of Internet Use in 2003 and 20015


                                  January 2003 Internet Usage

                    Mixed Use
                                                                           Business
                       21%
                                                                             28%




                                    Personal
                                      51%




                                    June 2001 Internet Usage

                                                                      Business
                Mixed Use
                                                                        21%
                   27%




                                                       Personal
                                                         52%




5
  The 2001 analysis was based on the number of bytes of information transferred to an
employee’s computer over an 8-day period in June 2001, while the 2003 data was based on a 1-
week period in January 2003. The 2001 analysis was based on a review of the logs similar to
those used for the 2003 analysis.




                                               7
Local and national news Web sites such as the Washington Post, CNN, and USA
Today dominate the mixed use category. Those Web sites were not placed in
either the business or personal use category because they can be used for both
reasons.

The agency does not monitor Internet use by individuals. While each individual
instance of Internet use could well be within the agency’s de minimis use policy,
the total personal use is so high that it leaves NRC vulnerable to criticism for
excessive employee time on the Internet.

Prohibited use of the Internet

A further breakdown of the personal Internet use in 2003 and 2001 is shown in
the following charts which detail the wide variety of Web sites that employees
accessed. The individuals who abused the usage policy by accessing prohibited
Web sites, including sexually explicit, gambling, and hate sites, were referred to
OIG’s investigative staff. However, prohibited use of the Internet decreased from
5 percent in 2001 to less than 1 percent in January 2003. Thus, the filtering
software blocking prohibited Web sites is effective at decreasing this kind of
activity. However, some instances still occur when individuals visit locations
where filtering does not work, such as e-mail or instant messaging. Subsequent
to our fieldwork, management officials stated that the issue of bypassing the
content filtering by using instant messaging has been resolved by blocking
instant messaging capability for the agency. Visits to these types of Web sites
are significant because the site contents may be offensive to others and could
lead to potential legal liabilities for the agency. NRC needs to continue to send a
strong message about inappropriate Internet use.




                                      8
                              Internet Use in 2003 and 2001


                             January 2003 Personal Internet Usage

                                       Misc                        Financial
                    Pictures           10%                           12%
                      6%
                                                                                      E-mail
Relationships
                                                                                       16%
     8%




                                                                                Shopping
          Entertainment
                                                                                 16.6%
              26%                                              Sports
                                                  Prohibited
                                                    0.3%        5%




                              June 2001 Personal Internet Usage

                                Misc                                Financial
                                16%                                   17%

   Relationships
        7%



                                                                                 E-mail
 Entertainment                                                                    16%
     11%
                Prohibited
                   5%             Sports                            Shopping
                                   10%                                18%




                                              9
    Conclusion

    During non-work time, NRC employees are allowed to use information
    technology resources, including the Internet, for personal reasons when that use
    is in accordance with NRC’s limited use policy. More agency action is needed to
    enforce contractor and employee personal Internet usage requirements.

    Because personal use is high as compared to the amount of overall Internet
    activity, NRC could suffer adverse publicity if the perception is that employees
    are spending excessive time pursuing personal interests at the expense of their
    work responsibilities.

RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

    1.     Provide management tools that will assist NRC managers and
           supervisors to evaluate Internet usage within their organization to
           (1) determine if their organizations are adhering to the agency’s de
           minimis Internet use policy and (2) take corrective actions where
           necessary.

    2.     Develop and implement an approach to periodically make NRC managers
           aware of their responsibilities regarding minimal employee use of the
           Internet.

AGENCY COMMENTS

    On August 4, 2003, OIG discussed its draft report with agency senior executives
    who generally agreed with the report recommendations. This final report
    incorporates agency comments, where appropriate.

SCOPE AND METHODOLOGY

    The scope of this audit was generally limited to analysis and evaluation of the
    Internet use during a 1-week period in January 2003. OIG reviewed NRC’s
    current Internet usage policy. OIG also met with NRC officials in NRC’s OCIO.
    To perform this review and build a profile of employee usage, OIG obtained
    firewall logs from the agency for the period under review. These firewalls contain
    logs of Web sites visited; the breakdown used for OIG’s analysis looked at Web
    pages visited and did not take into consideration instant messaging and chat
    rooms. The 1-week period that OIG selected occurred slightly over 1 month after
    the filtering software was in place to ensure that data analysis would take into
    consideration the filtering of inappropriate Web sites. OIG determined the
    amount of information transferred from each Web site. This information transfer
    (termed activity) indicates the actual number of bytes of information that were
    transferred to an employee’s computer through the proxy server. OIG analyzed


                                        10
about 75 percent of all agency Internet use for a 1-week period by reviewing
1,400 Web sites accessed in January 2003.

OIG trimmed each full Internet address shown in the firewall log to a base
address and reviewed the material at the address to evaluate its probable use.
Based generally on the material at the Web page accessed, OIG determined
whether the use was business, personal, or a combination of personal and
business reasons. OIG could not determine whether employees were spending
inappropriate amounts of time using the Internet for personal reasons because
firewall logs provide insufficient information to make such a determination.

The audit was conducted from January through May 2003 in accordance with
generally accepted Government auditing standards and included a review of
management controls related to the objectives of the audit.

The major contributors to this report were Beth Serepca, Audit Manager, and
Rebecca Underhill, Management Analyst.

cc:    Chairman Diaz
       Commissioner McGaffigan
       Commissioner Merrifield
       William Dean, OEDO




                                    11
Document Location: WORD DOC\G:\Audit\03-a-21\Final Report.doc



Distribution
OIG Chron
AIGA Chron
File: 03-a-21
RUnderhill
BSerepca


OIG            OIG        OIG         OIG           OIG         OIG
RUnderhill     BSerepca   TLipuma     SDingbaum     DLee        Hbell
08/ /03        08/ /03    08/ /03     03/ /03       03/ /03     03/ /03
Official File Copy




                                12
